No. 19-511
In the

Supreme Court of the United States
FACEBOOK, INC.,
Petitioner,
v.
NOAH DUGUID, INDIVIDUALLY AND
ON BEHALF OF HIMSELF AND ALL
OTHERS SIMILARLY SITUATED,
Respondent,
and
UNITED STATES,
Respondent-Intervenor.
On Petition for a Writ of Certiorari to
the Ninth Circuit Court of A ppeals

BRIEF OF AMICUS CURIAE ACA
INTERNATIONAL, INC. IN SUPPORT OF
THE PETITION FOR WRIT OF CERTIORARI
FILED BY FACEBOOK, INC.
Kelley Clark Morris
Gray Reed & McGraw LLP
1300 Post Oak Boulevard,
Suite 2000
Houston, TX 77056
(713) 986-7000

S. Greg White
Counsel of Record
Jim Moseley
Gray Reed & McGraw LLP
1601 Elm Street, Suite 4600
Dallas, TX 75201
(214) 954-4135
gwhite@grayreed.com

Attorneys for Amicus Curiae
ACA International, Inc.
292508

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICUS CURIAE ACA
INTERNATIONAL, INC.  . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 3
ARGUMENTS AND AUTHORITIES  . . . . . . . . . . . . . 6
Issue No. 1: Congress spoke in clear and
straightforward language, and that language
permits the use of a machine to dial telephone
numbers in many instances. What Congress
prohibited was the use of a machine to dial
random or sequential numbers. Indiscriminate
dialing is not the same thing as purposeful
contact with specific consumers . . . . . . . . . . . . . . . . . 6
A. The TCPA defines an “automatic telephone
dialing system” in simple terms . . . . . . . . . . . . . . 7
B. The structure and context in the statute
show that Congress was addressing a
specific issue—telemarketing robocalls  . . . . . . . 9
C. The purpose of the statute was to limit only
a specific type of automated calling . . . . . . . . . . 14

ii
Table of Contents
Page
D. C ou r t s a g r e e t h at a n “aut om at e d
t elephone d ia l i ng syst em” i ncludes
only equipment that stores or produces
numbers randomly or in sequence . . . . . . . . . . . 16
E. Cong ress was clear in its lang uage,
structure, and purpose: Using equipment
that simply dials a predetermined stored
number does not violate the Act . . . . . . . . . . . . . 18
Issue No. 2: Commercial speech, even
about unpleasant topics, is nevertheless
protected by the First Amendment. Congress
struck a careful balance when it passed the
Telephone Consumer Protection Act, and
the Ninth Circuit has upset that balance  . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Beckles v. United States,
137 S. Ct. 886 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Duguid v. Facebook, Inc.,
926 F.3d 1146 (9th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . 8
Gary v. Trueblue, Inc.,
346 F. Supp. 3d 1040 (E.D. Mich. 2018)  . . . . . . . . . .  17
Giaccio v. Pennsylvania,
382 U.S. 399 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Hill v. Conway,
463 A.2d 232 (Vt. 1983) . . . . . . . . . . . . . . . . . . . . . . . . . 9
Kolender v. Lawson,
461 U.S. 352 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Lamie v. United States Trustee,
540 U.S. 526 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Marks v. Crunch San Diego, LLC,
904 F.3d 1041 (9th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 8
MCI Telecomms. Corp. v. AT&T Co.,
512 U.S. 218 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Michigan v. Bay Mills Indian Cmty.,
572 U.S. 782 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iv
Cited Authorities
Page
Mobil Oil Corp. v. Higginbotham,
436 U.S. 618 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Regan v. Time, Inc.,
468 U.S. 641 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Rodriguez v. United States,
480 U.S. 522 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Rubin v. Coors Brewing Co.,
514 U.S. 476 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Soppet v. Enhanced Recovery Co., LLC,
679 F.3d 637 (7th Cir. 2012) . . . . . . . . . . . . . . . . . . . . 15
United States v. Locke,
471 U.S. 84 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Stevens,
559 U.S. 460 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Va. Pharmacy Bd. v.
Va. Citizens Consumer Council,
425 U.S. 748 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Statutes
15 U.S.C. §§ 1692–1692(p) . . . . . . . . . . . . . . . . . . . . . . . . . 4
47 U.S.C. § 227  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

v
Cited Authorities
Page
47 U.S.C. § 227(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
47 U.S.C. § 227(a)(4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
47 U.S.C. § 227(a)(5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
47 U.S.C. § 227(b)(1)(A)(iii)  . . . . . . . . . . . . . . . . . . . . . . . . 7
47 U.S.C. § 227(b)(3)(B) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
47 U.S.C. § 227(c)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Pub. L. No. 102-243, § 2, 105 Stat. 2394  . . . . . . . . . . . . 10
Sup. Ct. R. 37  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Regulations
16 C.F.R. § 310.4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
47 C.F.R. § 64.1200(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Other Authorities
Ernst & Young, The Impact of Third-Party
Debt Collection on the US National and
State Economies in 2016, 2 (Nov. 2017)  . . . . . . . . . 2
Gary v. Trueblue, Inc., No. 18-2281, 2019 U.S. App
LEXIS 26959 (6th Cir. Sept. 5, 2019) . . . . . . . . .  16, 17

vi
Cited Authorities
Page
robocalls.cash,

http://robocalls.cash (last visited
Nov. 18, 2019)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
INTEREST OF AMICUS CURIAE ACA
INTERNATIONAL, INC.
ACA International, the Association of Credit and
Collection Professionals, is a not-for-profit corporation
based in Minneapolis, Minnesota.1
Founded in 1939, ACA represents nearly 3,700
members, including credit grantors, collection agencies,
attorneys, asset buyers, and vendor affiliates. ACA
produces a wide variety of products, services, and
publications, including educational and compliance-related
information, and articulates the value of the credit-andcollection industry to businesses, policymakers, and
consumers.
ACA company members range in size from small
businesses with a few employees to large, publicly held
corporations. ACA company members collect rightfully
owed debts on behalf of other small and local businesses.
ACA members include businesses that operate within a
single town, city, or state and large national corporations
that do business in every state. Approximately 75% of
ACA’s company members have fewer than twenty-five
employees.
1. No Party’s counsel authored this brief in whole or in
part. No Party or Party’s counsel contributed money that
was intended to fund preparing or submitting this brief.
No person—other than Amicus Curiae ACA International,
its members, and its counsel—contributed money that was
intended to fund preparing or submitting this brief. All parties
have consented to the filing of this Amicus Brief. Counsel of
Record complied with Rule 37 by providing notice of its intent
to file an amicus brief more than 10 days before the filing date.

2
ACA members are an extension of every community’s
businesses. ACA members work with these businesses,
large and small, to obtain payment for the goods and
services already received by consumers.
In years’ past, the combined efforts of ACA members
has resulted in the annual recovery of billions of dollars—
dollars that are returned to and reinvested by businesses,
and that would otherwise constitute losses to member
businesses. Without an effective collection process, the
economic viability of these businesses—and, by extension,
the American economy in general—is threatened. The
recovery of rightfully owed consumer debt preserves
business; helps prevent job losses; keeps credit, goods, and
services available; and reduces the need for tax increases
to cover governmental budget shortfalls.
In 2017, ACA commissioned a study to measure the
various impacts of third-party debt collection on the
national and state economies. The study found that in 2016:
• Third-party debt collectors recovered about $78.5
billion from consumers on behalf of creditors and
government clients, to whom nearly $67.6 billion
was returned. 2
• The third-party collection of consumer debt
returned an average savings of $579 per household
by keeping the cost of goods and services lower. 3
2. Ernst & Young, The Impact of Third-Party Debt
Collection on the US National and State Economies in 2016,
2 (Nov. 2017), https://www.acainternational.org/assets/ernstyoung/ey-2017-aca-state-of-the-industry-report-final-5.pdf.
3. Id.

3
The Telephone Consumer Protection Act (TCPA)
permits the use computer equipment to dial phone
numbers, but not to generate numbers. Using a machine
to dial a selected and specific number, as ACA members
commonly do, does nothing to diminish the legitimate
protection that consumers are entitled to receive from
unsolicited telemarketing robocalls.
Although ACA members are engaged in a legitimate
effort to collect legally enforceable obligations, they are,
more recently, subjected to legal action that uses the
TCPA as a money-maker for consumers and lawyers who
represent them. One consumer credit expert is offering
a “kit” to “turn robocalls into cash.”4 Due to some circuit
court holdings that appear to ban any use of a device that
calls a number without a human finger pressing digits, the
TCPA has become more of a money-making system than
it is a consumer protective system.
SUMMARY OF THE ARGUMENT
ACA’s interest in this case is based, in part, on the
application of this statute to its members—persons and
entities in the business of collecting debt. Debt collection
companies use lists of telephone numbers to contact
debtors. Debt collectors use targeted lists and store
numbers identified with specific, identified debtors. The
stored numbers are intended to provide a means to contact
a specific person for a particular reason. ACA members
do not randomly or sequentially dial phone numbers, in
hopes of coming upon a person who owes money by mere
coincidence. A random or sequential calling system would
4.
2019).

robocalls.cash, http://robocalls.cash (last visited Nov. 18,

4
be economically disastrous and would possibly run afoul of
other federal statutes, including the Fair Debt Collection
Practice Act, 15 U.S.C. §§ 1692–1692(p), or the Do Not
Call Registry, 16 C.F.R. § 310.4 (FTC Rule) and 47 C.F.R
§ 64.1200(c) (FCC Rule).
Efforts to contact a person to collect a debt are not
perfect. Some debtors actively avoid contact, some do
not update their contact information, and some debtors
provide erroneous information. Stored lists of possible
contact information are an efficient, organized, and
permissible means of exercising an undisputed right to
attempt to collect legitimate debts.
The Ninth Circuit reimagined the definitions in the
TCPA in a way that makes the use of equipment that stores
phone numbers to contact people illegal. The decision
below is wrong for three separate reasons.
First, underlying the opinion below is judicial
activism: the idea that the courts should do what Congress
did not. The Ninth Circuit expanded the TCPA by reading
words into the statute. Had Congress intended to ban
all automated dialing systems, it could have done so, and
likely would have used plain language to do it. It would
not have attached significant penalties for something
that virtually every American does every day—dial a
phone number from a stored list. The plain language of
the statute—the language actually used by Congress—
prohibits the use of equipment that can generate random
or sequential numbers. Equipment that does not do that
does not violate the statute. Enforcing the plain language
of the statute—as Congress intended—provides certainty,

5
predictability, and fairness. See United States v. Locke,
471 U.S. 84, 95–96 (1985). 5
Second, an important distinction exists between
telemarketing robocalls and calling a stored number.
The plain language of the statute prohibits telemarketing
robocalls. Conversely, calling a stored number is just as
plainly permitted. The real-life differences between the
two justify this distinction. Companies that use a list of
stored numbers to target specific people for a specific
purpose do not want to use random or sequential number
generators to find their audience; to do so would result
in a colossal waste of time and economic resources.
Indeed, random and sequential calling would only serve
to increase a debt collector’s risk of violating other federal
laws specifically and unmistakably aimed at protecting
consumer privacy.
Third, using a list to contact specific people is a
conventional means of communication not limited to
businesses like debt collectors or customer surveys.
Expanding the TCPA’s plain language to include every call
made from a stored list would render ordinary Americans,
small businesses, and innocent organizations as violators.
Finally, while people may not welcome calls from
debt collectors, any unpleasantlness is not a license to
5. “[T]he fact that Congress might have acted with greater
clarity or foresight does not give courts carte blanche to redraft
statutes in an effort to achieve that which Congress is perceived
to have failed to do. ‘There is a basic difference between filling a
gap left by Congress’ silence and rewriting rules that Congress
has affirmatively and specifically enacted.’” Id. (quoting Mobil
Oil Corp. v. Higginbotham, 436 U.S. 618, 625 (1978)) (italics in
original).

6
penalize the lawful speech. The statutory language
defining an automatic telephone dialing system draws
the right balance for limiting commercial speech because
the statute identifies the evil to be addressed and uses
words that only limit speech in a way that is designed to
address that evil.
ARGUMENTS AND AUTHORITIES
Issue No. 1: Congress spoke in clear and straightforward
language, and that language permits the use of a
machine to dial telephone numbers in many instances.
What Congress prohibited was the use of a machine
to dial random or sequential numbers. Indiscriminate
dialing is not the same thing as purposeful contact
with specific consumers.
The Telephone Consumer Protection Act of 1991,
47 U.S.C. § 227 (“TCPA”), bans a specific kind of
communication. It addresses the nefarious robocall—an
indiscriminate communication between a telemarketer’s
computer-aided calling system and a random consumer
made for the sole purpose of selling goods, services, or
investments to whomever answers. Congress clearly
limited and penalized the use of automatic dialing systems
to contact consumers for this purpose. What Congress
clearly did not do was place an absolute prohibition on
the use of a computer-aided calling system for specific
meaningful communication with a specific, unique
consumer.
The plain language of the statute permits the use
of equipment to store numbers if the numbers are not
random or sequential.

7
A. The TCPA defines an “automatic telephone dialing
system” in simple terms:
(1) The term “automatic telephone dialing
system” means equipment which has the
capacity-(a) to store or produce telephone
numbers to be called, using a
random or sequential number
generator; and
(b) to dial such numbers.
47 U.S.C. § 227(a)(1). The statute then makes it unlawful
to use such a system to make any call:
to any telephone number assigned to a paging
service, a cellular telephone service, specialized
mobile radio service, or other radio common
carrier service, or any service for which the
called party is charged for the call, unless such
call is made solely to collect a debt owed to or
guaranteed by the United States.
Id. § 227(b)(1)(A)(iii). The penalty for making a call that
violates the Act is a minimum of $500 for each violation.
See id. § 277(b)(3)(B).
ACA members rely on this plain language. The calls
that ACA members understand to be prohibited are those
placed by an automatic telephone dialing system, and they
understand that the sole characteristics of an automatic
telephone dialing system are that it “stores or produces”

8
phone numbers by using a “random or sequential number
generator.” The Act prohibits using a machine that dials
“such numbers”—the ones stored or produced by the
random or sequential number generator.
ACA members also understand that Congress has the
power to regulate communication about debt collection.
The TCPA limits commercial speech—speech and
conduct that relates to the private economic interests of
the speaker and the audience. See Va. Pharmacy Bd. v.
Va. Citizens Consumer Council, 425 U.S. 748, 761–62
(1976). When a statute limits commercial speech, the
government must carefully balance interests. See Rubin v.
Coors Brewing Co., 514 U.S. 476, 482 (1995). In the TCPA,
Congress has already crafted the required balance by
using plain language quoted above.
But some courts have been unwilling to enforce the
TCPA’s plain language—preferring to make their own
rules about what kind of calls violate the Act and what kind
of calls result in statutory penalties. The Ninth Circuit did
precisely that by “rearticulat[ing]” the statutory definition
so that the Act prohibited any call from equipment “with
the capacity to store numbers to be called” or with the
capacity to “produce numbers to be called, using a random
or sequential number generator.” Duguid v. Facebook,
Inc., 926 F.3d 1146, 1149–50 (9th Cir. 2019) (citing Marks
v. Crunch San Diego, LLC, 904 F.3d 1041, 1053 (9th Cir.
2018)).
The rearticulated definition significantly alters
congressional language because it includes any device that
has the capacity to store and dial telephone numbers—
regardless of how those numbers were generated.

9
Congress meant to limit the use of devices that store
numbers using a random or sequential number generator.6
Congress could have defined the automated telephone
dialing system in a variety of ways that would have reached
more broadly than the actual language used. But the
statute addresses a specific type of call that perniciously
invaded the privacy of citizens— an indiscriminate call
made to attempt to sell things. The intent of the Act to
reach these robocalls is evident in other parts of the
statute.
B. The structure and context in the statute show
that Congress was addressing a specific issue—
telemarketing robocalls.
In other parts of the TCPA, Congress explicitly
defines “unsolicited advertisements” (material advertising
6. It does not help to quibble over the punctuation used by
Congress. The Supreme Court of Vermont said:
In construing statutes, we will not indulge in quibbles
over minute points of punctuation; they are among
the atomies of grammar. At best, the so-called
grammatical stops are widely misunderstood and
applied even among average and reasonably welleducated laymen, including legislators and, mirabile
dictu, even judges. Legislatures are not grammar
schools; and, in this country at least, it is hardly
reasonable to expect legislative acts to be drawn with
strict grammatical or logical accuracy. For that reason
the construction of a statute should be based on the
whole statute.
Hill v. Conway, 463 A.2d 232, 234 (Vt. 1983) (internal punctuations
and citations omitted).

10
the availability of property, goods or services) 7 and
“telephone solicitation” (a call encouraging the purchase,
rental or investment in property, goods or services). 8
Congress was concerned with unwelcome sales pitches
that were plaguing consumers.9
There is a legally and factually significant difference
between a telemarketing robocall and a customer contact
call like ACA Members use. Congress understood that
the robocall was the random automatic dialing of a phone
number with no purpose in mind other than getting
a person—any person—to answer. The person who
answered was then subjected to a high-pressure sales
script to sell something the person did not want to buy.
The unwanted pressure of a professional seller insistent on
getting the consumer to part with money was made more
powerful and more invasive by the computer-aided method
of a random selection of the numbers called. Consumers
were alarmed by the frequency and persistence of calls
because they immediately understood that the call had
nothing to do with them as a person, but that they were
called because some computer picked them out at random.10
7. 47 U.S.C. § 227(a)(5).
8. 47 U.S.C. § 227(a)(4).
9. In 47 U.S.C.§ 227(c)(1), Congress gave the FCC the power
to make rules to ensure that “residential telephones” could avoid
receiving telephone solicitations to which they objected.
10. When passing the TCPA in 1991, Congress made fifteen
specific findings to support the passage of the Act. Of those fifteen,
nine findings specifically mention “telemarketing” or “soliciting”
or both. See Telephone Consumer Protection Act of 1991, Pub. L.
No. 102-243, § 2, 105 Stat. 2394.

11
Those telemarketing robocalls are addressed by
the TCPA. And those telemarketing robocalls are very
different from a call to a specific person in an attempt to
collect a debt:
Telemarketing Robocalls
The caller designs a sales
script.
A computer randomly selects a telephone number.
A computer dials the
number.

The recipient is a randomly selected target of
a spam message.

Stored Number Contacts
The content of the call
depends on the conversation with the recipient.
The caller selects the recipient.
A computer suggests
numbers that will likely
result in effective communication of the message to the selected
person.
The caller selects, among
possible numbers, which
should be used so that
the caller can talk to a
specific person.

12
The recipient has no idea
why they were selected
to receive the call.

The recipient has an
identifiable prior relationship to the message
that makes it rational
that this particular recipient would be contacted.
While the recipient may
not have anticipated the
message, the recipient is
not surprised that they
were called.

The Ninth Circuit opinion below provides no rational
basis to conclude that rearticulating the definition of an
“automatic telephone dialing system” is necessary to
accomplish the goal that Congress intended to address—
protection from unwanted sales pitches. The language
that Congress used, without a new parsing of words, does
exactly what Congress set out to do.
The substantial penalties for violating the statute
also show that Congress did not intend to penalize every
call made from a stored list. Undoubtedly, Americans
would be surprised to learn that every day they were
violating a federal statute simply by placing a call using
their smartphones. The smartphone that stores numbers
and dials them without further human intervention is
squarely within the rearticulated definition in the Ninth
Circuit’s opinion. Americans would be violating the TCPA
by making a call from their contact list even though that
method of making a call is convenient and ordinary and is
easily the most accurate way of dialing a phone number.

13
ACA members think the same thing. ACA members
select phone numbers that are most likely to result in
contact with a specific person who owes a specific debt.
And storing a list of those numbers in a machine that will
dial those numbers when requested is the most accurate
way of dialing those numbers correctly.
The whole of the statute is clear enough that “ordinary
people can understand what conduct is prohibited and
in a manner that does not encourage arbitrary and
discriminatory enforcement.” Beckles v. United States,
137 S. Ct. 886, 892 (2017) (quoting Kolender v. Lawson,
461 U.S. 352, 357 (1983)). The Ninth Circuit’s rearticulated
definition “leaves the public uncertain as to the conduct
it prohibits [and] leaves judges . . . free to decide . . . what
is prohibited and what is not in each particular case.”
Giaccio v. Pennsylvania, 382 U.S. 399, 402–03 (1966).
And a rearticulated definition that changes the plain
meaning of the statute exposes ACA members and others
to significant penalties without a clear understanding of
precisely what kind of equipment is prohibited.
The Ninth Circuit opinion plays on the frustration
suffered by recipients of telemarketing calls to suggest
that the general public would welcome new definitions in
the TCPA that expand its reach. It may be that Congress
could have done a better job of protecting consumers
from unwanted calls. But the question for the courts is
not whether Congress could have done a better job, but
to declare what Congress did in fact. See Regan v. Time,
Inc., 468 U.S. 641, 704 (1984).

14
C. The purpose of the statute was to limit only a
specific type of automated calling.
People may argue that Congress would endorse
broad prohibitions on calls to consumers. But deciding
what competing values will or will not be sacrificed to the
achievement of a particular objective is the very essence
of legislative choice. “[T]o assume simplistically that
whatever furthers the statute’s primary objective must
be the law frustrates rather than effectuates legislative
intent.” Rodriguez v. United States, 480 U.S. 522, 526
(1987) (emphasis in original).
Every person has their phone number stored on
someone else’s phone. It might be a friend from high
school. It might be a church member from a former church.
And, it might be a former boyfriend’s social network. Any
of those groups might seek to communicate easily and
efficiently. A consumer might also be on a list of car owners
who need to be contacted about a recall of their vehicle,
or on a list of customers who are particularly vulnerable
to a credit card scam, or on a list of property owners who
might be interested in recently filed building permits in
their neighborhood.
People sometimes wish no one had their phone number.
Some do not want to be contacted; some are grateful for
essential notifications. Some are annoyed, frustrated, or
offended by attempted contact; some are glad that they
received individualized customer service. Under the Ninth
Circuit’s opinion, using any equipment that stored a list
of phone numbers and dialing a stored number from that
equipment is a violation of federal law and subjects the
caller to penalties. In other words, every smartphone in
America is an automatic telephone dialing system.

15
But calling from a list of specific stored numbers does
not run afoul of any of the purposes of the TCPA. It is not
a random number or a numerically sequential number.
A stored number list has numbers generated with the
purposeful effort and intervention of humans—not robots.
It identifies persons that are related to the message in a
unique way. The contact is based on a message that the
caller has a legal right to convey, and a right to expect a
response.
As Chief Judge Easterbrook of the Seventh Circuit
wisely explained:
Courts do try to avoid imputing nonsense
to Congress. This means, however, modest
adjustments to texts that do not parse. It
does not mean—at least, should not mean—
substantive changes designed to make the
law “better.” That would give the judiciary
entirely too much law-making power. . . . Nor
should a court try to keep a statute up to date.
Legislation means today what it meant when
enacted.
Soppet v. Enhanced Recovery Co., LLC, 679 F.3d 637, 642
(7th Cir. 2012) (citation omitted).
Consumers do not need the judicial system to create
an expanded TCPA. If a debt collector uses abusive tactics,
the Fair Debt Collection Practices Act provides ample
protection and remedies. If debt collector violates the
Telemarketing Sales Rule or the National Do-Not-Call
Registry rules, a consumer has adequate protection and
remedies. Additional protection under a separate section
of the TCPA is unnecessary and unintended.

16
And, courts should not invoke judicial power to change
legislation to make the law align with judicial preferences.
“If Congress enacted into law something different from
what it intended, then it should amend the statute to
conform to its intent.” Lamie v. United States Trustee, 540
U.S. 526, 542 (2004). In the meantime, this Court “has no
roving license . . . to disregard clear language simply on
the view that . . . Congress ‘must have intended’ something
broader.” Michigan v. Bay Mills Indian Cmty., 572 U. S.
782, 794 (2014). Courts are bound, not only by the ultimate
purposes Congress has selected, but by the means it has
deemed appropriate, and prescribed, for the pursuit of
those purposes. See MCI Telecomms. Corp. v. AT&T Co.,
512 U.S. 218, 231 n.4 (1994).
D. Courts agree that an “automated telephone dialing
system” includes only equipment that stores or
produces numbers randomly or in sequence.
In September of this year, the Sixth Circuit issued
an opinion that is in apparent conflict with the Ninth
Circuit’s opinion here. Gary v. Trueblue, Inc., No. 18-2281,
2019 U.S. App LEXIS 26959 (6th Cir. Sept. 5, 2019).11 In
Trueblue, the complaint centered on a messaging platform
that a staffing company used to send texts about potential
jobs to people who signed up for the service. A jobseeker
had originally signed up for the service, but later revoked
his consent. He alleged that he received over 5600 text
messages that he did not want.

11. The Sixth Circuit opinion in Gary v. Trueblue is “not
recommended for full-text publication.”

17
The Trueblue court, like the Ninth Circuit below,
considered whether the messaging system was an
automated telephone dialing system under the TCPA.
The district court held that, because the messaging
system could not randomly or sequentially text numbers
as required by the plain language of the TCPA, the
messaging platforms do not automatically violate the
statute. The Sixth Circuit did not disagree. Whether
the equipment has the “capacity” to generate random or
sequential numbers is not a question of what the equipment
can be made to do, but whether the equipment is actually
used to dial numbers at random or in numerical sequence.
Id. at *4-5; see also Gary v. Trueblue, Inc., 346 F. Supp.
3d 1040, 1046–47 (E.D. Mich. 2018).
This is precisely how the ACA members understand
the statute. The TCPA prohibits the use of automated
equipment to dial random or sequential numbers but does
not prohibit the use of equipment that dials numbers that
have been purposely selected and stored for later use. ACA
members need to contact specific persons as efficiently and
expeditiously as possible, and the use of software to dial
from a list of stored numbers is designed to make effective
contact. Interpreting the TCPA to require ACA members
to dial phone numbers manually introduces a significant
opportunity for human error, resulting in more calls to
the wrong person. Additionally, manual dialing would slow
down the collection process, driving up the cost of debt
collection, and thus, the cost of debt. Ultimately, the Ninth
Circuit’s statutory interpretation hurts the American
people, rather than protecting them.

18
E. Congress was clear in its language, structure,
and purpose: Using equipment that simply dials a
predetermined stored number does not violate the
Act.
The Ninth Circuit’s opinion below rewrites the TCPA
in the guise of rearticulating a critical definition. In
doing so, it makes illegal conduct that Congress did not.
It penalizes people that Congress did not. It hamstrings
business that Congress did not.
Issue No. 2: Commercial speech, even about unpleasant
topics, is nevertheless protected by the First Amendment.
Congress struck a careful balance when it passed the
Telephone Consumer Protection Act, and the Ninth
Circuit has upset that balance.
As written, the TCPA is not a blanket prohibition on
calls to collect a debt. Such a call may be unpleasant to
receive, but the request to pay for goods or to repay a loan
is a legitimate, not random, reason for contact. Companies
in the business of collecting debt would naturally seek
to use technology to make the work efficient, to make
contact and response productive, and to make resolution
simple. Congress permitted precisely that. It proscribed
the use of technology to invade the privacy of random
consumers, but no part of the statute prohibits a call to a
person who owes money to settle the debt. Nor does the
statute forbid the use of efficient technology to aid that
task, even unpleasant ones.
The First Amendment’s guarantee of free speech is
not limited to only those categories of speech surviving
the balancing of relative social costs and benefits. The
First Amendment itself reflects a judgment by the

19
American people that the benefits of its restrictions on
the Government outweigh the costs. “Our Constitution
forecloses any attempt to revise that judgment simply on
the basis that some speech is not worth it.” United States
v. Stevens, 559 U.S. 460, 470 (2010).
The Ninth Circuit’s opinion does precisely what the
Constitution will not permit. The court’s parsing of the
statute and ultimate ban of all speech made in apparent
violation of the rearticulated TCPA definitions effectively
punishes speech based on the subject matter—unpleasant
topics consumers wish to avoid. Under this Court’s
precedent, however, the government may not weigh the
value of that economic interest and declare it unworthy.
Id. at 469–70.
CONCLUSION
For the reasons stated herein, ACA International
respectfully urges the Court to grant Facebook’s Petition
for Certiorari and reverse the judgment of the Court of
Appeals.
Respectfully submitted,
Kelley Clark Morris
Gray Reed & McGraw LLP
1300 Post Oak Boulevard,
Suite 2000
Houston, TX 77056
(713) 986-7000

S. Greg White
Counsel of Record
Jim Moseley
Gray Reed & McGraw LLP
1601 Elm Street, Suite 4600
Dallas, TX 75201
(214) 954-4135
gwhite@grayreed.com
Attorneys for Amicus Curiae
ACA International, Inc.

